OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/AFGHANISTAN’S
SCHOOL AND HEALTH CLINIC
RECONSTRUCTION ACTIVITIES

AUDIT REPORT NO. 5-306-06-008-P
August 18, 2006




MANILA, PHILIPPINES
Office of Inspector General


August 18, 2006

MEMORANDUM

TO:                  USAID/Afghanistan Director, Leon S. Waskin

FROM:                Regional Inspector General/Manila, Catherine M. Trujillo /s/

SUBJECT:             Audit of USAID/Afghanistan’s School and Health Clinic Reconstruction Activities
                     (Audit Report No. 5-306-06-008-P)

This memorandum transmits our final report on the subject audit. In finalizing the report, we
considered your comments to the draft report and included the comments (without attachments)
in Appendix II.

This report contains two recommendations to improve USAID/Afghanistan’s school and health
clinic reconstruction activities. Based on your comments, we consider that a management
decision has been reached on Recommendation No. 1. Please provide the Audit, Performance
and Compliance Division of USAID’s Office of the Chief Financial Officer with evidence of final
action in order to close this recommendation. Regarding Recommendation No. 2, we consider
that final action has been taken on the recommendation.

I want to thank you and your staff for the cooperation and courtesy extended to us during the
audit.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd., 1308 Pasay City
Manila, Philippines
www.usaid.gov
CONTENTS
Summary of Results ....................................................................................................... 1

Background ..................................................................................................................... 2

Audit Objective .................................................................................................................. 3

Audit Findings ................................................................................................................. 4

Were USAID/Afghanistan’s school and health clinic
reconstruction activities on schedule to achieve planned
outputs?

     Reconstruction Issues Need Resolution .................................................................... 7

Evaluation of Management Comments ......................................................................... 8

Appendix I – Scope and Methodology .......................................................................... 9

Appendix II – Management Comments ....................................................................... 11
SUMMARY OF RESULTS
The Regional Inspector General/Manila conducted this audit to determine whether
USAID/Afghanistan’s school and health clinic reconstruction activities were on schedule
to achieve planned outputs. (See page 3.)

USAID/Afghanistan’s school and health clinic reconstruction activities were on schedule
to achieve planned outputs. Specifically, at April 19, 2006, USAID/Afghanistan and its
implementing partners were on schedule to complete 705 (91 percent) of the 776 school
and health clinic buildings planned to be constructed or refurbished under the Schools
and Clinics Construction and Refurbishment Program (SACCARP). Further, 511 of the
705 buildings had already been completed and turned over to the Government of
Afghanistan. (See page 4.)

Although it was on schedule to achieve 91 percent of its planned outputs, it has taken
USAID/Afghanistan much longer than anticipated to reach this point. Factors such as
deteriorating security and weather restrictions, which were beyond the Mission’s control,
were often responsible for the roll back of completion dates and changes to the number
of buildings to be reconstructed under the SACCARP. (See pages 5-6.) Although some
factors were beyond its control, the Mission contributed to delays in getting 71 buildings
completed. (See page 7.)

This report made two recommendations to improve USAID/Afghanistan’s school and
health clinic reconstruction activities. (See page 7.) In response to our draft report,
USAID/Afghanistan concurred with the audit recommendations.           Based on our
evaluation of the Mission’s comments and supporting documentation, we consider that a
management decision has been reached on Recommendation No. 1 and final action has
been taken on Recommendation No. 2. (See page 8.) USAID/Afghanistan’s comments
are included as Appendix II to this report. (See page 11.)




                                                                                        1
BACKGROUND
USAID/Afghanistan’s school and health clinic reconstruction activities, now referred to as
the Schools and Clinics Construction and Refurbishment Program (SACCARP), have
had a history of changes to the number of schools and health clinics to be reconstructed
and extensions to the dates by which the reconstruction was to have been completed.

In September 2002, under its Rehabilitation of Economic Facilities and Services
Program, USAID/Afghanistan began to reconstruct schools and health clinics throughout
Afghanistan. Initially, USAID/Afghanistan tasked The Louis Berger Group, Inc. (LBGI) to
complete up to 40, 140, and 240 school and health clinic buildings cumulatively in
calendar years 2003, 2004, and 2005, respectively.

In March 2004, USAID/Afghanistan removed all but 105 buildings from LBGI’s contract
because it was not satisfied with the contractor’s progress on the school and health clinic
buildings that it had begun to reconstruct in 2003.

In May 2004, USAID/Afghanistan entered into cooperative agreements with five
international nongovernmental organizations, which along with LBGI were to reconstruct
a total of 779 school and health clinic buildings. The Mission also found it necessary to
revise its building-completion target date from June 2004 to September 2004.

In October 2004, the OIG audited the school and health clinic reconstruction activities.
At that time, USAID/Afghanistan had planned to complete 533 buildings by
December 31, 2004. Our audit reported that the Mission would complete only 328
buildings by December 31, 2004.          In response to our audit recommendation,
USAID/Afghanistan developed a new implementation plan, which set August 31, 2005,
as the new target date to complete the 533 buildings.

In January 2006, USAID/Afghanistan confirmed to the OIG that it had not met the
August 31, 2005, target date and that school and health clinic reconstruction activities
were still ongoing. Consequently, the OIG decided to conduct a second audit of these
activities.

Table 1 on page 4 shows that by the time our second audit began in April 2006,
USAID/Afghanistan had increased the number of schools and health clinics it planned to
reconstruct from 533 to 776 and the number of implementing partners from six to seven.
Furthermore, the Mission did not plan to complete all 776 buildings until
September 29, 2006.

At USAID/Afghanistan, the Office of Infrastructure, Engineering and Energy is
responsible for overseeing the SACCARP. From September 2002 through April 2006,
the Mission’s total obligations and disbursements for the SACCARP were approximately
$92 million and $81 million, respectively.




                                                                                         2
AUDIT OBJECTIVE
The Regional Inspector General/Manila added this audit to its fiscal year 2006 audit plan
to answer the following question:

•   Were USAID/Afghanistan’s school and health clinic reconstruction activities on
    schedule to achieve planned outputs?

Appendix I contains a discussion of the audit’s scope and methodology.




                                                                                       3
AUDIT FINDINGS
USAID/Afghanistan’s school and health clinic reconstruction activities were on schedule
to achieve planned outputs.

As Table 1 illustrates, at April 19, 2006, USAID/Afghanistan and its implementing partners
were on schedule to complete 705 (91 percent) of the 776 school and health clinic buildings
planned to be constructed or refurbished under the Schools and Clinics Construction and
Refurbishment Program (SACCARP). Further, 511 of the 705 buildings had already been
completed and turned over to the Government of Afghanistan.1 The completed buildings
consisted of 314 schools (90 newly constructed and 224 refurbished) and 197 health clinics
(140 newly constructed and 57 refurbished).

                 Table 1: School and Health Clinic Reconstruction Progress
                                    (As of April 19, 2006)
                                      Planned      Number of    Number of                    On
     Implementing         Award      Number of Completed Incomplete                       Schedule
         Partner         End Date    Buildings      Buildings   Buildings                 Yes No
    Cooperative
    Housing
    Foundation
    International       11/30/2005           60              9          51                    9     51
    International
    Organization for
    Migration          12/15/2006 2         454            299         155                 454       0
    The Louis
    Berger Group,
    Inc.                03/31/2006          105             90          15                   90     15
    Shelter for Life    03/30/2006           52             49           3                   49      3
    United
    Methodist
    Committee on
    Relief              02/28/2006           26             24           2                   24      2
    United Nations
    Office for
    Project
    Services            06/30/2006           70             40          30                   70      0
    U.S. Army
    Corps of
    Engineers           09/29/2006             9             0           9                   9       0
                 Totals                     776            511         265                 705      71

1
  We classified a school or health clinic building as “completed” if it met USAID/Afghanistan’s
definition of “substantially completed”, which was a building that could be safely and effectively used
by the public without further delays, disruption, or other impediments.
2
  We used this date because, at the time of our fieldwork, USAID/Afghanistan had approved an
action memorandum to modify International Organization for Migration’s agreement, which
included extending the agreement from May 31, 2006, to December 15, 2006.


                                                                                                     4
    OIG photograph of a school ready for            OIG photograph of a clinic that provides
    inspection in Parwan, Afghanistan. (May 2006)   basic health care services to 35-40 patients
                                                    per day in Paktya, Afghanistan. (May 2006)


At April 19, 2006, a total of 265 buildings were in various stages of completion. Seventy
one of these buildings were not completed by the respective agreement or contract end
date. On May 4, 2006, the Acting Mission Director signed an action memorandum to
transfer most of the 71 buildings to the International Organization for Migration (IOM) and to
extend IOM’s agreement to December 15, 2006, to allow time for their completion. By the
end of our fieldwork, the Mission had not modified IOM’s agreement to reflect the transfer
(see discussion at page 7).

Although it was on schedule to achieve 91 percent of the SACCARP’s planned outputs, it
has taken USAID/Afghanistan much longer than anticipated to reach this point. For
example, although 511 buildings had been completed by April 19, 2006, the total is still less
than the 533 buildings the Mission had previously planned to complete by
December 31, 2004. As noted in the “Background” section of this report, the Mission, on a
number of occasions, rolled back the dates by which it expected to complete reconstruction
under the SACCARP. For example, the award end dates for five implementing partners
were extended an average of three times since May 2004. Even with extensions, four
implementing partners were not able to complete the 71 buildings discussed in the
preceding paragraph—buildings originally scheduled to be completed by
December 31, 2004.

Factors beyond USAID/Afghanistan’s control were often responsible for the roll back of
completion dates and changes to the number of buildings to be reconstructed under the
SACCARP. 3 These factors included:

•     Deteriorating security. Since May 2004, 11 USAID-funded schools and health clinics
      have been damaged or destroyed by terrorist attacks. Seven of the 11 have been hit
      since the beginning of 2006, representing a recent upsurge of such attacks.


3
 Some of these constraints have been reported on by the OIG and the General Accountability
Office (GAO): OIG Report No. 5-306-05-003-P, dated March 14, 2005, “Audit of
USAID/Afghanistan’s School and Clinic Reconstruction Program”; and GAO-05-742, dated July
28, 2005, “Afghanistan Reconstruction: Despite Some Progress, Deteriorating Security and
Other Obstacles Continue to Threaten Achievement of U.S. Goals”.


                                                                                                   5
•   Poor subcontractor performance, compounded by the lack of skilled labor.
    Implementing partners have terminated a combined total of 31 subcontractors for poor
    performance, mismanagement, or other contract breaches.

•   Questionable site selection. Afghan ministries, in some cases, selected hard-to-access
    sites for a school or health clinic. For example, the site selected for the Argo Primary
    School in Badakhshan province was on a mountain slope (see photographs below),
    which, according to a monitoring report obtained from the Mission, posed a danger to
    the school’s stability during the rainy season.




                                                               U.S. Army Corps of Engineers
                                                               photographs of the incomplete
                                                               Argo Primary School built on the
                                                               slope   of   a   mountain     in
                                                               Badakhshan, Afghanistan. (May
                                                               2006)




•   Weather restrictions. In certain areas, reconstruction has to halt during the winter.

•   U.S. government expectations. Since the beginning of the SACCARP, the Mission has
    agreed to overly ambitious targets considering the environment in Afghanistan. Even
    after a March 2005 OIG report cited overly optimistic expectations as a problem; the
    Mission raised its target from 533 to 776 buildings.

Regarding overly optimistic expectations, a USAID/Afghanistan official explained that a high
goal was set for the SACCARP because USAID and the U.S. Department of State wanted
to ensure that Afghanistan “would not go back to where it was before”. One official added
that the U.S. government initially thought that it needed to help 20 million people in
Afghanistan, but now the country has 28 million people. So, he concluded, there is now a
greater need for schools and health clinics.

Although some factors were beyond its control, we noted instances where
USAID/Afghanistan should have taken more timely action to address performance issues
affecting the SACCARP.


                                                                                            6
Reconstruction Issues
Need Resolution
USAID’s Automated Directives System Chapter 202.3.6.3 states that, depending on the
situation, operating units may need to develop an entirely new activity and instrument, or
simply modify and change an existing activity to ensure effective use of USAID funding.

USAID/Afghanistan did not take timely action to resolve issues involving 66 of the 71
schools and health clinics that were not completed on schedule. For example, from
August 2004 to August 2005, The Louis Berger Group, Inc. repeatedly requested that
the Mission allow it to terminate the reconstruction of 13 buildings because of precarious
security at the project sites. However, as of May 17, 2006, the end of our audit
fieldwork, the Mission had not taken any actions on the 13 partially completed buildings.
In November 2005, the Mission did not extend its agreement with Cooperative Housing
Foundation International (CHF) to construct 60 buildings because of past performance. It
was not until May 4, 2006, however, that the Mission decided to transfer the 51 buildings
that CHF did not complete to IOM and, as of May 17, 2006, it had not modified IOM’s
agreement to add the 51 buildings. Again in November 2005, when United Methodist
Committee on Relief’s (UMCOR) agreement ended, the Mission decided to transfer to IOM
the two buildings that UMCOR did not complete. But, as of May 17, 2006, the Mission had
not modified IOM’s agreement to reflect the transfer.

In May 2006, the OIG reported that USAID/Afghanistan had not taken timely action on an
issue affecting the performance of another program. 4 The OIG recommended that the
Mission establish procedures to document, track and promptly resolve significant issues
uncovered in its own monitoring efforts that could affect the progress of its reconstruction
activities. About the time our fieldwork ended on this audit, the Mission provided evidence
that it had established such procedures, which, in the future, should help it identify and take
timely action on issues such as those discussed in the preceding paragraph. Therefore, we
are not making another recommendation here on the need for such systemic procedures,
but we are making two recommendations specific to the 66 schools and health clinics.

By not taking timely action, USAID/Afghanistan contributed to delays in getting the 66
buildings completed. To help ensure the effective use of USAID funding, we are making
the following recommendations:

    Recommendation No. 1: We recommend that USAID/Afghanistan make a final
    decision on what to do with the 13 buildings that The Louis Berger Group, Inc. did
    not complete and take any actions necessary to carry out its decision.

    Recommendation No. 2: We recommend that USAID/Afghanistan immediately
    modify the scope of work in its agreement with the International Organization for
    Migration to add the 51 buildings not completed by Cooperative Housing
    Foundation International and the two buildings not completed by the United
    Methodist Committee on Relief.



4
  OIG Report No. 5-306-06-005-P, “Audit of USAID/Afghanistan’s Reconstruction of the
Kandahar-Herat Highway Under the Rehabilitation of Economic Facilities and Services (REFS)
Program”.


                                                                                             7
EVALUATION OF
MANAGEMENT COMMENTS
In its response to our draft report, USAID/Afghanistan concurred with the two
recommendations.

For Recommendation No. 1, USAID/Afghanistan management concluded that security
conditions still prevented reconstruction of the 13 schools and health clinics that the
Louis Berger Group, Inc. (LBGI) could not complete. Consequently, the Mission Director
signed an action memorandum formally canceling work on the 13 buildings. However,
LBGI’s contract had not yet been modified to delete the buildings. We consider that a
management decision has been reached on this recommendation; it can receive final
action when LBGI’s contract is modified. The Mission should coordinate final action with
the Audit Performance and Compliance Division of USAID’s Office of the Chief Financial
Officer. Although it canceled work on the 13 schools and health clinics, the Mission
intends to annually review their situation to determine if it can complete them.

For Recommendation No. 2, USAID/Afghanistan management modified its agreement
with the International Organization for Migration to add the 51 buildings not completed by
Cooperative Housing Foundation International and the two buildings not completed by
United Methodist Committee on Relief. Consequently, we consider that final action has
been taken on this recommendation.

USAID/Afghanistan’s comments are included without attachments in Appendix II.




                                                                                        8
                                                                               APPENDIX I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/Manila conducted this audit in accordance with
generally accepted government auditing standards to determine whether
USAID/Afghanistan’s school and health clinic reconstruction activities, now referred to as
the Schools and Clinics Construction and Refurbishment Program (SACCARP), were on
schedule to achieve planned outputs.

The audit covered SACCARP’s planned outputs as of April 19, 2006, as contained in the
Master List, the Mission’s database for the school and health clinic buildings undergoing
construction or refurbishment. As of April 2006, the Mission had recorded obligations of
about $92 million and disbursements of about $81 million for SACCARP. The audit
fieldwork was conducted from April 22 to May 17, 2006, at the Kabul offices of the Mission,
the Afghan Ministries of Education and Public Health, and five implementing partners. The
fieldwork included visits to ten project sites in the Badakhshan, Ghazni, Kabul, Logar,
Paktya, and Parwan provinces of Afghanistan.

In planning and performing the audit, we reviewed and assessed the significant internal
controls used by USAID/Afghanistan to ensure that SACCARP activities were on schedule
to achieve planned outputs. The assessment included controls related to whether the
Mission (1) conducted and documented site visits to evaluate progress and monitor quality;
(2) reviewed progress and monitoring reports submitted by the implementing partners; (3)
maintained a reliable tracking list or database on the progress of each project site; and (4)
established and maintained a separate project file for each project site. We also reviewed
the Mission’s Federal Managers’ Financial Integrity Act report for fiscal year 2005 for any
issues related to the audit objective. Finally, we reviewed relevant prior audit reports.

The planned outputs under SACCARP were the reconstruction of 776 schools and health
clinics. USAID/Afghanistan maintained a master list of the 776 project sites. From this
master list, we judgmentally selected 616 project sites to test whether the master list
accurately and completely reported the reconstruction status of each school and health
clinic.

Methodology
To answer the audit objective, we interviewed officials and staff from USAID/Afghanistan,
the two host government ministries, and five of the seven implementing partners. We did
not interview officials at Cooperative Housing Foundation International because it closed its
offices in Kabul when its agreement with the Mission expired in 2005. We also did not
interview officials of the U.S. Army Corps of Engineers because, at the time of our audit, it
had not started to reconstruct any schools or health clinics.

In addition, we reviewed documentary evidence to test whether the project data in
USAID/Afghanistan’s master list accurately and completely reported the status of the 776
schools and health clinics that were to be reconstructed. The evidence included:




                                                                                           9
                                                                            APPENDIX I


•   Documents supporting the completion of a building, such as the substantial
    completion inspection punch list and USAID letters of award of substantial
    completion or final acceptance.

•   Documents supporting the in-progress status of a building, such as implementing
    partners’ progress reports and USAID monitoring reports and photographs taken at
    project sites.

•   USAID’s implementation plan.

•   Implementing partners’ contracts or agreements, their modifications, and related
    correspondence.

•   Laws, regulations, and USAID policy and guidance related to the audit objective.

Furthermore, we reviewed project files for selected buildings maintained by the
implementing partners and, to the extent permitted by security conditions, we visited
project sites.

We answered the audit objective using the following parameters:

•   The audit objective would be met if 90 percent of all planned outputs were achieved
    or were on schedule to be achieved by their latest award end date.

•   The audit objective would be partly met if less than 90 percent, but not less than 70
    percent, of all planned outputs were achieved or were likely to be achieved by their
    latest award end date.

•   The audit objective would not be met if less than 70 percent of all planned outputs
    were achieved or were likely to be achieved by their latest award end date.




                                                                                       10
                                                                                                         APPENDIX II



MANAGEMENT COMMENTS
                    USAID AFGHANISTAN
                    FROM THE AMERICAN PEOPLE




                                                                                           August 14, 2006
MEMORANDUM

TO:                           Catherine M. Trujillo, RIG/Manila,

FROM:                         Leon S. Waskin, Mission Director /s/

SUBJECT:                      USAID/Afghanistan – Response to Draft Audit
                              Report – Audit of USAID/Afghanistan’s School and
                              Health Clinics Reconstruction Activities, Draft
                              Audit Report dated July 14, 2006. (Report No. 5-
                              306-06-00X-P)

We appreciate the opportunity to respond to the subject draft
report. The Mission concurs with the draft report and has
accordingly taken corrective action to address the recommendations
as detailed below:

         Recommendation No. 1. We recommend that
         USAID/Afghanistan make a final decision on what to do
         with the 13 buildings that The Louis Berger Group, Inc
         did not complete and take any actions necessary to
         carry out its decision.

         USAID/Afghanistan Response: The Mission has made a final
         decision to cancel construction of the 13 buildings that
         Louis Berger Group, Inc. (LBGI) could not complete due to
         the critical security situation at the sites where these
         buildings were to be located. Attached is the action
         memorandum approved by the Mission Director canceling nine
         schools and four clinics that were part of the 105 total
         schools and clinics planned to be constructed by LBGI.




 U.S. Agency for International Development
 Great Massoud Road                          Tel: (202) 216-6288                                               11
 Kabul                                       Fax: (202) 216-6288 ext. 4162
 Afghanistan                                 http://www.usaid.gov/locations/asia_near_east/afghanistan
                                                       APPENDIX II



     Recommendation No. 2. We recommend that
     USAID/Afghanistan immediately modify the scope of work
     in its agreement with the International Organization
     for Migration to add the 51 buildings not completed by
     Cooperative Housing Foundation International and the
     two building not completed by the United Methodist
     Committee on Relief.

     USAID/Afghanistan Response: In response to the
     recommendation, the Mission has modified its agreement with
     International Organization for Migration to add 50
     buildings not completed by Cooperative Housing Foundation
     International and the two buildings (One School and One
     Clinic) not completed by United Methodist Committee on
     Relief. Please find attached Modification No.10 of
     Cooperative Agreement Number 306-A-00-04-00532-00 with
     International Organization for Migration. Please note that
     the 51st building incorporated in the recommendation above
     was also modified in a separate modification document also
     attached.

     Based on the corrective actions outlined above,
     USAID/Afghanistan requests closure (final action) of
     Recommendations No. 1 and 2 upon issuance of the final
     audit report.

     Finally, USAID/Afghanistan and its implementing partners
     are proud of achieving 91% of the planned outputs during
     this period of significant instability in Afghanistan. We
     believe this is an enviable achievement under any
     circumstance, but especially in a war zone with the added
     constraints identified by the audit team in the draft
     report.


     Thank you.


Attachments: As stated.




                                                                 12
U.S. Agency for International Development
        Office of Inspector General
        1300 Pennsylvania Ave, NW
          Washington, DC 20523
            Tel: (202) 712-1150
            Fax: (202) 216-3047
            www.usaid.gov/oig
